E-Mail Address: 775 H Street, N.E.

Est ol briefs@wilsonepes.com Washington, D.C. 20002
WSO yl Web Site: Tel (202) 789-0096
ates www.wilsonepes.com Fax (202) 842-4896
No. 19-1225
PAUL HUNT,
Petitioner,

v.

BOARD OF REGENTS OF THE UNIVERSITY SYSTEM OF
NEW MExiIco et al.,

Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on May 18, 2020, the following counsel have expressly waived service
of paper copies by mail and have requested electronic service and that true and correct electronic
copies of the MOTION FOR LEAVE TO FILE BRIEF AND BRIEF OF AMICUS CURIAE OF THE
JOSEPH L. BRECHNER CENTER FOR FREEDOM OF INFORMATION, STUDENT PRESS
LAW CENTER, THE ELECTRONIC FRONTIER FOUNDATION AND THE NATIONAL
COALITION AGAINST CENSORSHIP, FILED IN SUPPORT OF APPELLANT, SEEKING
REVERSAL were served on the following counsel at the e-mail addresses indicated:

Counsel for Petitioner: Counsel for Respondent:
WILLIAM SPENCER CONSOVOY MATTHEW ZIDOVSKY
CoNnsovoy McCaRTHY PLLC STEPHEN F. HAMILTON
1600 Wilson Boulevard 325 Paseo de Peralta
Suite 700 Santa Fe, NM 87501
Arlington, VA 22209 PO Box 2307
(703) 243-9423 Santa Fe, NM 87504-2307
will@consovoymccarthy.com (505) 986-2657
mzidovsky@montand.com
JEFF BAKER shamilton@montand.com
THE BAKER LAW GROUP

20 First Plaza Ctr NW # 402
Albuquerque, NM 87102

Jeff@thebakerlawgroup.com L ( p) hl Ul
ROBYN DORSEY WILLIS

‘WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

  
 

stbag

Sworn to and subscribed before me this 18th day of ( 2020.
«

  

COLIN CASEY
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
